      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




January 13, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Illinois’ Reporting of Fund Recoveries in the Appeals Process on the
               Form CMS-64 (A-05-11-00052)


Attached, for your information, is an advance copy of our final report on Illinois’ reporting of
fund recoveries in the appeals process on the Form CMS-64. We will issue this report to the
Illinois Department of Healthcare and Family Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Sheri L. Fulcher, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number A-05-11-00052.


Attachment
     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
January 18, 2012

Report Number: A-05-11-00052

Ms. Julie Hamos
Director
Illinois Department of Healthcare and Family Services
Prescott E. Bloom Building
201 South Grand Avenue East, 3rd Floor
Springfield, IL 62763

Dear Ms. Hamos:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Illinois’ Reporting of Fund Recoveries in the
Appeals Process on the Form CMS-64. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-11-00052 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie Hamos


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601

cc:
Ms. Jamie Nardulli, Audit Liaison, IDHFS
Ms. Peggy Edwards, Audit Liaison, IDHFS
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF ILLINOIS’ REPORTING
     OF FUND RECOVERIES
   IN THE APPEALS PROCESS
     ON THE FORM CMS-64




                       Daniel R. Levinson
                        Inspector General

                         January 2012
                         A-05-11-00052
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Illinois, the Department of Healthcare and Family Services (State agency) administers the
Medicaid program. The State agency, through the Illinois Department of Healthcare and Family
Services, Office of Inspector General (HFS-OIG), conducted audits of Medicaid providers. In
addition, HFS-OIG contracted annually with third parties to conduct audits of Medicaid
providers. When State Medicaid audits identified overpayments, HFS-OIG sent letters to the
providers identifying the overpayment amounts and providing information on arranging
payment, sending additional documentation, or appealing the decision.

Section 1903(d)(2) of the Act requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State to refund the
Federal share of an overpayment to the provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations other than fraud or abuse is the date that the provider was first notified in
writing of an overpayment and of the dollar amount subject to recovery (42 CFR § 433.316(c)).
Appeal rights extended to a provider do not extend the date of discovery (42 CFR § 433.316(h)).
Federal regulations (42 CFR § 433.304) define an overpayment as “ ... the amount paid by a
Medicaid agency to a provider in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act.” Because the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64), is due on a quarterly basis, the CMS State
Medicaid Manual requires that the Federal share of overpayments be reported no later than the
quarter in which the 60-day period ends.

OBJECTIVE

Our objective was to determine whether the State agency reported Medicaid overpayments that
were in the appeals process on the CMS-64 in accordance with Federal requirements.

SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments in the appeals process in accordance
with Federal requirements. For the period January 1, 2007, through September 30, 2009, the




                                                  i
State agency did not report Medicaid overpayments totaling $18,147,198 ($9,086,779 Federal
share) in accordance with Federal requirements.

The State agency did not report 24 of the 27 overpayments reviewed on the CMS-64. The State
agency correctly reported the remaining three overpayments. Because the State agency did not
properly report overpayments on the CMS-64, the Federal Government may have incurred
increased interest expense of $71,822.

The State agency did not properly report these overpayments because it had an unwritten policy
of reporting overpayments not involving fraud or abuse when the provider appeals process was
completed, rather than at the end of the 60-day period following discovery.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $18,147,198 on the CMS-64 and refund
       $9,086,779 to the Federal Government and

   •   ensure that future Medicaid overpayments that are in the appeals process are reported on
       the CMS-64 in accordance with Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal Requirements for Medicaid Overpayments ............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          OVERPAYMENTS NOT REPORTED ..........................................................................4

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................4

          RECOMMENDATIONS .................................................................................................4

          STATE AGENCY COMMENTS ....................................................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share of State Medicaid expenditures according to a defined
formula. To receive Federal reimbursement, State Medicaid agencies are required to report
expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program, Form CMS-64 (CMS-64).

In Illinois, the Department of Healthcare and Family Services (State agency) administers the
Medicaid program. The State agency, through the Illinois Department of Healthcare and Family
Services, Office of Inspector General (HFS-OIG), conducted audits of Medicaid providers. In
addition, HFS-OIG contracted annually with third parties to conduct audits of Medicaid
providers. When State Medicaid audits identified overpayments, HFS-OIG sent letters to the
providers identifying the overpayment amounts and providing information on arranging
payment, sending additional documentation, or appealing the decision.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary of Health and
Human Services to recover the amount of a Medicaid overpayment. Federal regulations
(42 CFR § 433.304) define an overpayment as “… the amount paid by a Medicaid agency to a
provider in excess of the amount that is allowable for services furnished under section 1902 of
the Act and which is required to be refunded under section 1903 of the Act.” A State has
60 days from the discovery of a Medicaid overpayment to the provider to recover, or attempt to
recover, the overpayment before the Federal share of the overpayment must be refunded to
CMS. 1 Section 1903(d)(2)(C) of the Act and Federal regulations (42 CFR part 433, subpart F)
require a State to refund the Federal share of overpayments at the end of the 60-day period

1
  42 CFR § 433.312(a). Effective March 23, 2010, section 6506 of the Patient Protection and Affordable Care Act,
P.L. No. 111-148, provides an extension for the collection of overpayments. Except in the case of overpayments
involving fraud, States have up to 1 year from the date of discovery of a Medicaid overpayment to recover, or to
attempt to recover, the overpayment before making an adjustment to refund the Federal share of the overpayment.
For overpayments identified before the effective date, the previous rules on discovery of overpayments remain in
effect.


                                                        1
following discovery whether or not the State has recovered the overpayment from the provider. 2
Appeal rights extended to a provider do not extend the date of discovery (42 CFR § 433.316(h)).
Pursuant to 42 CFR § 433.316(c), an overpayment that is not a result of fraud or abuse is
discovered on the earliest date:

        (1) … on which any Medicaid agency official or other State official first notifies a
        provider in writing of an overpayment and specifies a dollar amount that is subject
        to recovery; (2) … on which a provider initially acknowledges a specific overpaid
        amount in writing to the medicaid agency; or (3) … on which any State official or
        fiscal agent of the State initiates a formal action to recoup a specific overpaid
        amount from a provider without having first notified the provider in writing.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly Form CMS-64. Provider overpayments must be
credited on the CMS-64 submitted for the quarter in which the 60-day period following
discovery ends (60-day rule). If the amount of an overpayment is adjusted downward (e.g.,
based on the provider’s appeal) after the State has credited CMS with the Federal share, the State
may reclaim the amount of the downward adjustment on a subsequent CMS-64 (42 CFR
§ 433.320(c)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency reported Medicaid overpayments that
were in the appeals process on the CMS-64 in accordance with Federal requirements.

Scope

Our review covered Medicaid provider overpayments of $1,000 or more that HFS-OIG identified
in overpayment letters issued to providers from January 1, 2007, through July 31, 2009, that
should have been reported on the CMS-64 from January 1, 2007, through September 30, 2009.
We reviewed 27 overpayments totaling $23,761,893 that were in the appeals process. 3

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency’s policies and
procedures for identifying, collecting, and reporting Medicaid overpayments.

We performed fieldwork at the State agency offices in Springfield, Illinois, from March to
May 2011.

2
  Sections 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.
3
 State officials informed us during another OIG audit (A-05-11-00044) that the 27 overpayments were in the
appeals process. That audit covered overpayments that were not in the appeals process.



                                                         2
Methodology

To accomplish our audit objective, we:

    •   reviewed Federal laws, regulations, and CMS State Medicaid Manual provisions
        governing Medicaid overpayments;

    •   interviewed State agency officials on their policies and procedures for Medicaid
        overpayments subject to the 60-day rule and reporting those overpayments on the
        CMS-64;

    •   identified 27 overpayments for Medicaid services subject to the 60-day rule that were in
        the appeals process and identified by HFS-OIG between January 1, 2007, and July 31,
        2009, totaling $23,761,893;

    •   established the dates of discovery using the dates that HFS-OIG notified Medicaid
        providers in writing of the overpayments and the dollar amount subject to recovery;

    •   determined the quarter in which the 60-day period following discovery of the
        overpayment ended;

    •   reviewed the CMS-64 to determine whether the Medicaid overpayments were reported
        within the quarter in which the 60-day period following discovery ended;

    •   determined whether providers selected as part of our sample were bankrupt or out of
        business; and

    •   computed the potentially higher interest expense to the Federal Government resulting
        from overpayments and income not reported within the required timeframe using the
        number of days between required reporting dates and the State fiscal year ended June 30,
        2010. 4

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




4
 We calculated the interest expense using the applicable interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.



                                                        3
                         FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments that were in the appeals process in
accordance with Federal requirements. For the period January 1, 2007, through September 30,
2009, the State agency did not report Medicaid overpayments totaling $18,147,198 ($9,086,779
Federal share) in accordance with Federal requirements.

The State agency did not report 24 of the 27 overpayments reviewed on the CMS-64. The State
agency correctly reported the remaining three overpayments. Because the State agency did not
properly report overpayments on the CMS-64, the Federal Government may have incurred
increased interest expense of $71,822.

The State agency did not properly report these overpayments because it had an unwritten policy
of reporting overpayments not involving fraud or abuse when the provider appeals process was
completed, rather than at the end of the 60-day period following discovery.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “... must refund the Federal share of
overpayments at the end of the 60-day period following discovery ... whether or not the State
has recovered the overpayment from the provider.” The regulation provides an exception only
when the State is unable to recover the overpayment because the provider is bankrupt or out of
business (42 CFR § 433.318). Appeal rights extended to a provider do not extend the date of
discovery (42 CFR § 433.316(h)).

For the period January 1, 2007, through September 30, 2009, the State agency did not report 24
of 27 Medicaid overpayments totaling $18,147,198 ($9,086,779 Federal share) on the CMS-64.

POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report some overpayments that were in the appeals process, the
Federal Government did not have the use of these funds. As a result, the Federal Government
potentially incurred an increased interest expense of $71,822. However, we did not include this
expense in the overpayments that we recommend the State agency refund.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $18,147,198 on the CMS-64 and refund
       $9,086,779 to the Federal Government and

   •   ensure that future Medicaid overpayments that are in the appeals process are reported on
       the CMS-64 in accordance with Federal requirements.




                                               4
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                              5
APPENDIX
                                                             APPENDIX: STATE AGENCY COMMENTS

·.fH
... •..
     ..   ~. ,.· S
                 · · .. . Healllicare
                  ..
                          iLt.,. lft.~. ~$ ~~~
                         I.•..


                         . Family SfiVices;
                                            . ~.:f. MM
                                             ...i. \ and
                                                     .::  ..• :l'
                                                         .•..Oi
                                                             ..•.
                                                                                          Pat Quinn, Governor
                                                                                          Julie Hamos, Director


201 South Grand Avenue East                                                                Telephone: (217) 782-1200
Springfield, Illinois 62763-0002                                                           TTY: (800) 526-5812




                                                                      November 17, 2011




     Department of Health and Human Services
     Office of Audit Services, Region V
     Attn: Sheri L. Fulcher, Regional Inspector General for Audit Services
     233 North Michigan Avenue, Suite 1360
     Chicago, Illinois 60601

     Re: Draft Audit Report Number A-05-11-00052

     Dear Ms. Fulcher:

     Thank you for providing the opportunity to comment on your draft audit report entitled "Review of
     Illinois' Reporting of Fund Recoveries in the Appeals Process on the Form CMS-64 for Fiscal Years
     2008 and 2009".

     The Department concurs with the finding. The Department will refund $9,086,779 via the CMS-64
     Quarter Ending December 31, 2011. We will also report all future overpayments consistent with the
     statutory time frame.

    We appreciate the work completed by your audit team. If you have any questions or comments about
    our response to the audit, please contact Jamie Nardulli, External Audit Liaison, at (217) 558-2527 or
    through email at jamie.nardulli@illinois.gov.

     Sincerely,

     Julie Hamos
     Director




E-mail: hfs.webmaster@illinois.gov                                                        Internet: http://www.hfs.illinois.gov/
